                                                                        public announcements of audits I Appendix F I OCTOBER 21, 2009   1




PUBLIC ANNOUNCEMENTS OF                                             D. FDIC OIG4
AUDITS                                                              Ongoing Evaluation
This appendix provides an announcement of new and ongo-             •	 Evaluation of the FDIC’s Loss Share Agreements and Public
ing public audits by the agencies listed below. See Appendix G         Private Partnerships. One of the objectives of this evaluation
“Key Oversight Reports and Testimonies” for a listing of pub-          is to assess the FDIC’s monitoring of the U.S. Federal Parties’
lished reports. Italics style indicates narrative taken verbatim       open bank loss share agreement with Citigroup.
from the agencies’ responses to SIGTARP’s data call.
•	 U.S. Department of the Treasury Office of Inspector
    General (“Treasury OIG”)
•	 Board of Governors of the Federal Reserve System Office
    of Inspector General (“Federal Reserve OIG”)
•	 Government Accountability Office (“GAO”)
•	 Federal Deposit Insurance Corporation Office of Inspector
    General (“FDIC OIG”)

A. Treasury OIG1
None.

B. Federal Reserve OIG2
Ongoing Audits
•	 Review of the Federal Reserve’s Lending Facilities and
   Special Programs (fieldwork is ongoing).

C. GAO3
Ongoing Audits
•	 CPP Approval and Return Process: Review Treasury’s
   process as well as regulators’ processes for approval, as well
   as Treasury and regulators’ application of criteria for repay-
   ment. Probable winter issuance.
•	 TALF: Evaluate oversight systems, monitor activities, and
   evaluate indicators of success. Likely late November issu-
   ance. Similar review of PPIP for next year.                      Endnotes
•	 Financial Audit of TARP: Due November 15.                        	 Treasury OIG, response to SIGTARP data call, 10/2/2009.
                                                                    1


•	 Effect of TARP on Treasury’s Debt Management: Early next         	 Federal Reserve OIG, response to SIGTARP data call, 10/7/2009.
                                                                    2


   year.                                                            	 GAO, response to SIGTARP data call, 10/7/2009.
                                                                    3


•	 Partnering with SIGTARP on oversight of government man-          	 FDIC OIG, response to SIGTARP data call, 10/6/2009.
                                                                    4


   agement of formerly private-sector entities.
2            Appendix g I KEY OVERSIGHT REPORTS AND TESTIMONIES I OCTOBER 21, 2009




    KEY OVERSIGHT REPORTS AND TESTIMONIES
    This list reflects TARP-related reports and testimonies published since SIGTARP’s last quarterly report. See SIGTARP’s
    October 2009 Quarterly Report to Congress for a list of prior reports and testimonies.			


    U.S. DEPARTMENT OF THE TREASURY (Treasury)
    ROLES AND MISSION
    The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. government’s finances effectively;
    promoting economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury
    advises the President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial
    institutions.
    OVERSIGHT REPORTS
    Treasury, Transactions Report, 07/02/2009-10/2/2009, www.financialstability.gov/latest/reportsanddocs.html, accessed 10/8/2009. (released weekly)
    Treasury, Section 105(a) Report, 07/10/2009- 09/11/2009, www.financialstability.gov/latest/reportsanddocs.html, accessed 10/8/2009.
    Treasury, “Response to SIGTARP recommendations, July 2009,” 8/18/2009, www.financialstability.gov/docs/dividends-interest-reports/Final%20
    Treasury%20Response%20to%20SIGTARP%20Recommendations%20(07022009).pdf, accessed 10/8/2009.
    Treasury, “Summary Response to GAO report, August 2009,” 8/18/2009, www.financialstability.gov/docs/Response%20to%20the%20GAO%20
    Recommendations%20-%20August%2014,%202009.pdf, accessed 10/8/2009.
    Treasury, “Safety and Soundness: City National Corporation Capital Purchase Program Case Study,” 8/27/2009, www.ustreas.gov/inspector-general/
    audit-reports/2009/oig09044.pdf, accessed 10/8/2009.
    RECORDED TESTIMONY
    Treasury, “Deputy Treasury Secretary Neal Wolin Speech Before The ABA,” 7/22/2009, www.financialstability.gov/latest/tg224.html, accessed
    10/8/2009.
    Treasury, “Assistant Secretary for Financial Stability Herbert M. Allison, Jr. Testimony on the Troubled Assets Relief Program,” 7/22/2009, www.
    financialstability.gov/latest/tg225.html, accessed 10/8/2009.
    Treasury, “Secretary Geithner before the House Financial Services Committee,” 7/24/2009, www.financialstability.gov/latest/tg231.html, accessed
    10/8/2009.
    Treasury, “Assistant Secretary for Financial Institutions Michael S. Barr Written Testimony Senate Committee on Banking, Housing, and Urban Affairs,”
    8/5/2009, www.treas.gov/press/releases/tg258.htm, accessed 10/8/2009.
    Treasury, “Assistant Secretary for Financial Institutions Michael S. Barr Written Testimony on Stabilizing the Housing Market before the House Financial
    Services Committee, Subcommittee on Housing and Community Opportunity,” 9/9/2009, www.financialstability.gov/latest/tg_279.html, accessed
    10/8/2009.
    Treasury, “Secretary Geithner Written Testimony before the Congressional Oversight Panel,” 9/10/2009, www.financialstability.gov/latest/tg_283.html,
    accessed 10/8/2009.
    Treasury, “Treasury Secretary Timothy F. Geithner Written Testimony House Financial Services Committee Financial Regulatory Reform,” 9/23/2009,
    www.financialstability.gov/latest/tg_09232009.html, accessed 10/8/2009.
    Treasury, “Assistant Secretary Allison Written Testimony - Senate Committee on Banking, Housing and Urban Affairs,” 9/24/2009, www.financialstability.
    gov/latest/09242009_testimony.html, accessed 10/8/2009.
                                                                         KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix G I OCTOBER 21, 2009              3




FINANCIAL STABILITY OVERSIGHT BOARD (FSOB)
ROLES AND MISSION
FSOB is responsible for reviewing the exercise of authority under programs developed in accordance with EESA, including:
• policies implemented by the Secretary and the Office of Financial Stability, including the appointment of financial agents, the designation of asset
  classes to be purchased, and plans for the structure of vehicles used to purchase troubled assets
• the effect of such actions in assisting American families in preserving home ownership, stabilizing financial markets, and protecting taxpayers
  In addition, FSOB is responsible for making recommendations to the Secretary on the use of the authority under EESA, as well as for reporting any
  suspected fraud, misrepresentation, or malfeasance to SIGTARP or the U.S. Attorney General.
OVERSIGHT REPORTS
FSOB, “Financial Stability Oversight Board Issues Report on the Emergency Economic Stabilization Act,” 7/20/2009, www.financialstability.gov/latest/
tg_07202009.html, accessed 10/8/2009.
FSOB, “Treasury Issues Status Report on Financial Stabilization Efforts,” 9/14/2009, www.financialstability.gov/latest/09142009_statusReport.html,
accessed 10/8/2009.
RECORDED TESTIMONY
None
SECURITIES AND EXCHANGE COMMISSION (SEC)
ROLES AND MISSION
SEC administers the federal securities laws, requires disclosure by public companies, and brings enforcement actions against violators of securities law.
While other federal and state agencies are legally responsible for regulating mortgage lending and the credit markets, SEC has taken these decisive
actions to address the extraordinary caused by the current credit crisis:
• aggressively combating fraud and market manipulation through enforcement actions
• taking swift action to stabilize financial markets
• enhancing transparency in financial disclosure
OVERSIGHT REPORTS
None
RECORDED TESTIMONY
SEC, “Protecting Shareholders and Enhancing Public Confidence by Improving Corporate Governance,” Meredith B. Cross, Director, Division of
Corporation Finance, Before the Subcommittee on Securities, Insurance, and Investment of the United States Senate Committee on Banking, Housing
and Urban Affairs, 7/29/2009, www.sec.gov/news/testimony/2009/ts072909mbc.htm, accessed 10/8/2009.
SEC, “Testimony Concerning the Over-the-Counter Derivatives Markets Act of 2009,” Chairman Mary L. Schapiro, Chairman, Before the Subcommittee on
Securities, Insurance, and Investment of the United States Senate Committee on Banking, Housing and Urban Affairs, 9/22/2009, www.sec.gov/news/
testimony/2009/ts092209mls.htm, accessed 10/8/2009.
SEC, “Testimony Concerning Recent Innovations in Securitization,” Paula Dubberly, Associate Director, Division of Corporation Finance, Before the
Subcommittee on Capital Markets, Insurance, and Government Sponsored Enterprises of the United States House of Representatives Committee on
Financial Services, 9/24/2009, www.sec.gov/news/testimony/2009/ts092409pd.htm, accessed 10/8/2009.
SEC, “Testimony Concerning Reforming Credit Rating Agencies,” Daniel M. Gallagher, Co-Acting Director, Division of Training and Markets, Before the
United States House of Representativies Committee on Financial Services and Subcommittee on Capital Markets, Insurance and Government Sponsored
Enterprises, 9/30/2009, www.sec.gov/news/testimony/2009/ts093009dmg.htm, accessed 10/8/2009.
4            Appendix g I KEY OVERSIGHT REPORTS AND TESTIMONIES I OCTOBER 21, 2009




    GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
    ROLES AND MISSION
    GAO is tasked with performing ongoing oversight of TARP’s performance, including:
    • evaluating the characteristics of asset purchases and the disposition of assets acquired
    • assessing TARP’s efficiency in using the funds
    • evaluating compliance with applicable laws and regulations
    • assessing the efficiency of contracting procedures
    • auditing TARP’s annual financial statements and internal controls
    • submitting reports to Congress at least every 60 days
    OVERSIGHT REPORTS
    GAO, “Troubled Asset Relief Program: Status of Participants’ Dividend Payments and Repurchases of Preferred Stock and Warrants,” 7/9/2009,
    www.gao.gov/docsearch/pastsixmonths.html, accessed 10/8/2009.
    GAO, “Financial Markets Regulation: Financial Crisis Highlights Need to Improve Oversight of Leverage at Financial Institutions and across System,”
    7/22/2009, www.gao.gov/docsearch/pastsixmonths.html, accessed 10/8/2009.
    GAO, “Troubled Asset Relief Program: Status of Efforts to Address Transparency and Accountability Issues,” 7/22/2009, www.gao.gov/docsearch/
    pastsixmonths.html, accessed 10/8/2009.
    GAO, “Troubled Asset Relief Program: Treasury Actions Needed to Make Home Affordable Modification Program More Transparent and Accountable,”
    7/23/2009, www.gao.gov/new.items/d09837.pdf, accessed 10/8/2009.
    GAO, “Fannie Mae and Freddie Mac: Analysis of Options for Revising the Housing Enterprises’ Long-term Structures,” 9/10/2009, www.gao.gov/
    docsearch/pastsixmonths.html, accessed 10/8/2009.
    GAO, “Troubled Asset Relief Program: Status of Government Assistance Provided to AIG,” 9/21/2009, www.gao.gov/docsearch/pastsixmonths.html,
    accessed 10/8/2009.
    GAO, “Troubled Asset Relief Program: Status of Efforts to Address Transparency and Accountability Issues,” 9/24/2009, www.gao.gov/docsearch/
    pastsixmonths.html, accessed 10/8/2009.
    GAO, “Financial Regulation: Recent Crisis Reaffirms the Need to Overhaul the U.S. Regulatory System,” 9/29/2009, www.gao.gov/docsearch/
    pastsixmonths.html, accessed 10/8/2009.
    GAO, “Troubled Asset Relief Program: One Year Later, Actions Needed to Address Remaining Transparency and Accountability Challenges,” 10/8/2009,
    www.gao.gov/new.items/d1016.pdf, accessed 10/8/2009.
    RECORDED TESTIMONY
    None
                                                                         KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix G I OCTOBER 21, 2009           5




Congressional oversight panel (cop)
ROLES AND MISSION
COP is tasked with reviewing the current state of the financial markets and the regulatory system. As a by-product of these oversight activities, COP
is required to produce the following reports to Congress:
• regular reports every 30 days that cover a variety of issues, including administration of the program, the impact of purchases on the financial
  markets/financial institutions, market transparency, and the effectiveness of foreclosure mitigation, minimization of long-term costs, and maximiza-
  tion of benefits for taxpayers
• a special report on regulatory reform, published no later than January 20, 2009, analyzing the current state of the regulatory system and its effec-
  tiveness at overseeing the participants in the financial system and protecting consumers. The report is to provide recommendations for improve-
  ment regarding whether any participants in the financial markets that are currently outside the regulatory system should become subject to the
  regulatory system, the rationale underlying such recommendation, and whether there are any gaps in existing consumer protections.
OVERSIGHT REPORTS
COP, “TARP Repayments, Including the Repurchase of Stock Warrants,” 7/10/2009, http://cop.senate.gov/reports/, accessed on 10/8/2009.
COP, “The Continued Risk of Troubled Assets,” 8/11/2009, http://cop.senate.gov/reports/, accessed on 10/8/2009.
COP, “The Use of TARP Funds in Support and Reorganization of the Domestic Automotive Industry,” 9/9/2009, http://cop.senate.gov/reports/,
accessed on 10/8/2009.
RECORDED TESTIMONY
COP, “Warrant Repurchases and Protecting Taxpayers,” Elizabeth Warren, House Financial Services Committee,” 7/22/2009, http://cop.senate.gov/
hearings, accessed 10/8/2009.
COP, “Emergency Economic Stabilization Act: One Year Later,” Elizabeth Warren, Senate Banking Committee,” 9/24/2009, http://cop.senate.gov/
hearings, accessed 10/8/2009.
OFFICE OF MANAGEMENT AND BUDGET (OMB)
ROLES AND MISSION
OMB’s predominant mission is to assist the President in overseeing the preparation of the federal budget and to supervise its administration in Ex-
ecutive Branch agencies. In helping to formulate the President’s spending plans, OMB evaluates the effectiveness of agency programs, policies, and
procedures, assesses competing funding demands among agencies, and sets funding priorities. OMB ensures that agency reports, rules, testimony,
and proposed legislation are consistent with the President’s Budget and with Administration policies.

In addition, OMB oversees and coordinates the Administration’s procurement, financial management, information, and regulatory policies. In each of
these areas, OMB’s role is to help improve administrative management, to develop better performance measures and coordinating mechanisms, and
to reduce any unnecessary burdens on the public.
OVERSIGHT REPORTS
None
RECORDED TESTIMONY
None
CONGRESSIONAL BUDGET OFFICE (CBO)
ROLES AND MISSION
CBO’s mandate is to provide the Congress with objective, nonpartisan, and timely analyses to aid in economic and budgetary decisions on the wide array
of programs covered by the federal budget, and the information and estimates required for the Congressional budget process.

CBO assists the House and Senate Budget Committees, and the Congress more generally, by preparing reports and analyses. In accordance with the
CBO’s mandate to provide objective and impartial analysis, CBO’s reports contain no policy recommendations.
OVERSIGHT REPORTS
None
RECORDED TESTIMONY
None
6            Appendix g I KEY OVERSIGHT REPORTS AND TESTIMONIES I OCTOBER 21, 2009




    FEDERAL RESERVE BOARD (Federal Reserve)
    ROLES AND MISSION
    Federal Reserve’s duties fall into four general areas:
    • conducting the nation’s monetary policy by influencing the monetary and credit conditions in the economy in pursuit of maximum employment, stable
      prices, and moderate long-term interest rates
    • supervising and regulating banking institutions to ensure the safety and soundness of the nation’s banking and financial system and to protect the
      credit rights of consumers
    • maintaining the stability of the financial system and containing systemic risk that may arise in financial markets
    • providing financial services to depository institutions, the U.S. government, and foreign official institutions, including playing a major role in operating
      the nation’s payments system
    OVERSIGHT REPORTS
    Federal Reserve “Audit of the Board’s Processing of Applications for the Capital Purchase Program under the Troubled Asset Relief Program,”
    9/30/2009, www.federalreserve.gov/oig/oig_rpt_2009.htm, accessed 10/8/2009.
    RECORDED TESTIMONY
    Federal Reserve, “Over-the-counter derivatives,” Patricia White, Associate Director, Testimony before the Committee on Banking, Housing, and Urban
    Affairs, U.S. Senate, 6/22/2009, www.federalreserve.gov/newsevents/testimony/2009testimony.htm, accessed 10/8/2009.
    Federal Reserve, “Bank supervision,” Daniel K. Tarullo, Governor, Testimony before the Committee on Banking, Housing, and Urban Affairs, U.S. Senate,
    8/4/2009, www.federalreserve.gov/newsevents/testimony/2009testimony.htm, accessed 10/8/2009.
    Federal Reserve, “Acquisition of Merrill Lynch by Bank of America,” Ben S. Bernanke, Chairman, Testimony before the Committee on Banking, Housing,
    and Urban Affairs, U.S. Senate, 8/4/2009, www.federalreserve.gov/newsevents/testimony/2009testimony.htm, accessed 10/8/2009.
    FEDERAL DEPOSIT INSURANCE CORPORATION (FDIC)
    ROLES AND MISSION
    FDIC is an independent agency created by Congress that maintains the stability and public confidence in the nation’s financial system by insuring depos-
    its, examining and supervising financial institutions, and managing receiverships.
    OVERSIGHT REPORTS
    None
    RECORDED TESTIMONY
    FDIC, “Statement of Sheila C. Bair Chairman, Federal Deposit Insurance Corporation on Strengthening and Streamlining Prudential Bank Supervision
    before the Committee on Banking, Housing and Urban Affairs,” 8/4/2009, www.fdic.gov/news/news/speeches/chairman/spaug0409.html, accessed
    10/8/2009.

      FEDERAL DEPOSIT INSURANCE CORPORATION office of the inspector general (FDIC OIG)
      ROLES AND MISSION
      The Office of Inspector General promotes the economy, efficiency, and effectiveness of FDIC programs and operations, and protects against fraud,
      waste, and abuse, to assist and augment the FDIC’s contribution to stability and public confidence in the nation’s financial system.
      OVERSIGHT REPORTS
      None
      RECORDED TESTIMONY
      None
                                                                                            KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix G I OCTOBER 21, 2009                              7




 SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
 ROLES AND MISSION
 The Office of the Special Inspector General for the Troubled Asset Relief Program (“SIGTARP”) was established by the Emergency Economic Stabilization
 Act of 2008 (“EESA”). Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits
 and investigations of the purchase, management and sale of assets under the Troubled Asset Relief Program (“TARP”). SIGTARP’s goal is to promote
 economic stability by assiduously protecting the interests of those who fund the TARP programs — i.e., the American taxpayers. This is achieved by
 facilitating transparency in TARP programs, providing effective oversight in coordination with other relevant oversight bodies, and through robust criminal
 and civil enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.
 OVERSIGHT REPORTS
 SIGTARP, “SIGTARP Survey Demonstrates That Banks Can Provide Meaningful Information On Their Use Of TARP Funds,” 7/20/2009, www.sigtarp.
 gov/reports/audit/2009/SIGTARP_Survey_Demonstrates_That_Banks_Can_Provide_Meaningfu_%20Information_On_Their_Use_Of_TARP_Funds.pdf,
 accessed 10/8/2009.
 SIGTARP, “Quarterly Report to Congress Additional Appendices A, B, E & F,” 7/21/2009, www.sigtarp.gov/reports/congress/2009/July2009_Quarterly_
 Report_to_Congress_Appendices.pdf, accessed 10/8/2009.
 SIGTARP, “Quarterly Report to Congress,” 7/21/2009, www.sigtarp.gov/reports/congress/2009/July2009_Quarterly_Report_to_Congress.pdf,
 accessed 10/8/2009.
 SIGTARP, “Opportunities to Strengthen Controls to Avoid Undue External Influence over Capital Purchase Program Decision Making,” 8/06/2009,
 www.sigtarp.gov/reports/audit/2009/Opportunities_to_Strengthen_Controls.pdf, accessed 10/8/2009.
 SIGTARP, “Despite Evolving Rules on Executive Compensation, SIGTARP Survey Provides Insights on Compliance,” 8/19/2009, www.sigtarp.gov/
 reports/audit/2009/Despite%20Evolving%20Rules%20on%20Exec%20Comp..._8_19_09.pdf, accessed 10/8/2009.
 RECORDED TESTIMONY
 SIGTARP, “Testimony Before the House Committee on Oversight and Government Reform,” 7/21/2009, www.sigtarp.gov/reports/testimony/2009/
 Testimony_Before_the_House_Committee_on_Oversight_and_Government_Reform.pdf, accessed 10/8/2009.
 SIGTARP, “Testimony Before the House Committee on Financial Services Subcommittee on Oversight and Investigations,” 7/22/2009, www.sigtarp.
 gov/reports/testimony/2009/Testimony_Before_the_House_Committee_on_Financial_Services_Subcommittee_on_Oversight_and_Investigations2.pdf,
 accessed 10/8/2009.
 SIGTARP, “Testimony Before the Senate Committee on Banking, Housing, and Urban Affairs,” 9/24/2009, www.sigtarp.gov/reports/testimony/2009/
 Testimony_Before_the_Senate_Banking_Committee_on_Banking_Housing_and_Urban_Affairs_%209_24_09_Final.pdf, accessed 10/8/2009.


Note: Italics style indicates verbatim narrative taken from source documents.

Sources: Treasury, www.treas.gov, accessed 10/8/2009; Treasury Inspector General, www.treas.gov, accessed 10/8/2009; Financial Stability Oversight Board, www.treas.gov, accessed 10/8/2009;
SEC, www.sec.gov, accessed 10/8/2009; GAO, www.gao.gov, accessed 10/8/2009; COP, www.cop.senate.gov, accessed 10/8/2009; OMB, www.whitehouse.gov, accessed 10/8/2009; CBO, www.
cbo.gov, accessed 10/8/2009; Federal Reserve Board, www.federalreserve.gov, accessed 10/8/2009; FDIC, www.fdic.gov, accessed 10/8/2009; FDIC OIG, www.fdicoig.gov, accessed 10/8/2009;
OMB, www.whitehouse.gov, accessed 10/8/2009; CBO, www.cbo.gov, accessed 10/8/2009.	
		
		
		
		
